U.S. Department of Justice

Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Leroy Baca v. United States of America,
S.CtNo. 19-102

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 18, 2019. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government's response is now due on October 4, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0102
BACA, LEROY
USA

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
STE. 600
SAN DIEGO, CA 92101
619-794-0420

